               Department of Veterans Affairs
               Office of Inspector General


                    Office of Healthcare Inspections

Report No. 14-02066-266




    Combined Assessment Program 

             Review of the 

     Providence VA Medical Center 

       Providence, Rhode Island 





September 2, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                     CAP Review of the Providence VA Medical Center, Providence, RI



                                              Glossary
                 CAP            Combined Assessment Program
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Providence VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MRI            magnetic resonance imaging
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 PRC            Peer Review Committee
                 PT/INR         prothrombin time and international normalized ratio
                 PTT            partial thromboplastin time
                 QM             quality management
                 SDS            same day surgery
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                 CAP Review of the Providence VA Medical Center, Providence, RI



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       4

  QM ..........................................................................................................................    4

  EOC ........................................................................................................................     7

  Medication Management.........................................................................................                  10

  Coordination of Care ...............................................................................................            11

  Acute Ischemic Stroke Care ...................................................................................                  12

  MRI Safety ..............................................................................................................       14


Appendixes
  A. Facility Profile ....................................................................................................        15

  B. Strategic Analytics for Improvement and Learning ............................................                                16

  C. VISN Director Comments ..................................................................................                    19

  D. Facility Director Comments ...............................................................................                   20

  E. OIG Contact and Staff Acknowledgments .........................................................                              26

  F. Report Distribution .............................................................................................            27

  G. Endnotes ...........................................................................................................         28





VA OIG Office of Healthcare Inspections
                                     CAP Review of the Providence VA Medical Center, Providence, RI



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
June 16, 2014.

Review Results: The review covered six activities. We made no recommendations
in the following three activities:

 Medication Management

 Coordination of Care

 Magnetic Resonance Imaging Safety

The facility’s reported accomplishments were Compensation and Pension Systems
redesign, accreditation by the Commission on Cancer, and Pathway to Excellence®
designation by the American Nurses Credentialing Center.

Recommendations: We made recommendations in the following three activities:
Quality Management: Report completed actions from peer reviews to the Peer Review
Committee.     Ensure the Special Care Committee collects data that measures
performance in responding to codes. Require the Surgical Service Staff Committee to
meet monthly and the Blood Usage Review Committee to meet at least quarterly.
Include the results of proficiency testing and the results of peer reviews when
transfusions did not meet criteria in the blood/transfusions usage review process.
Ensure that when data analysis indicates problems or opportunities for improvement,
actions are consistently identified, implemented, and followed to resolution in surgical
performance improvement activities, electronic health record quality reviews, and
blood/transfusion reviews.

Environment of Care: Ensure all patient care areas and public rest rooms are clean.
Follow procedures for terminal cleaning of patient rooms. Ensure that in patient care
areas, damaged furniture is repaired or removed from service and damaged surfaces
are repaired. Bring the pharmacy clean room for compounding sterile products into
compliance with United States Pharmacopeia <797> cleanliness, sterility, and
monitoring standards. Ensure all required members of the Environment of Care
Committee consistently attend committee meetings, and strengthen the program to
ensure effective surveillance activities. Require VA Police to update the Security
Management Plan annually and to submit quarterly security reports to the Environment
of Care Committee.

Acute Ischemic Stroke Care: Complete and document National Institutes of Health
stroke scales for each stroke patient, and screen patients for difficulty swallowing prior



VA OIG Office of Healthcare Inspections                                                          i
                                     CAP Review of the Providence VA Medical Center, Providence, RI


to oral intake. Provide printed stroke education to patients upon discharge. Ensure
assessment of patients presenting with stroke symptoms includes facility required blood
tests.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 19–25, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                                     CAP Review of the Providence VA Medical Center, Providence, RI



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following six activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Acute Ischemic Stroke Care

   	 MRI Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
June 13, 2014, and was done in accordance with OIG standard operating procedures
for CAP reviews.    We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment



VA OIG Office of Healthcare Inspections                                                          1
                                     CAP Review of the Providence VA Medical Center, Providence, RI


Program Review of the Providence VA Medical Center, Providence, Rhode Island,
Report No. 12-00708-171, April 27, 2012).

During this review, we presented crime awareness briefings for 13 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
343 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                        Reported Accomplishments 

Compensation and Pension
By using the techniques of systems redesign and considering the Veterans Benefits
Administration as one of its customers, the Compensation and Pension Department has
significantly improved the timeliness and quality of exams. Department personnel have
worked to decrease veteran claims processing times to a current average of 12 days.
Daily communication between the two organizations has led to a constructive
relationship that benefits veterans. This strong customer service effort has been
recognized with an I Care Award from VISN 1 in 2013 and 2014 and a Gold Award from
the VHA Office of Disability and Medical Assessment in 2014.

Cancer Program
The facility has one of two cancer programs in VISN 1 accredited by the American
College of Surgeons’ Commission on Cancer. Accreditation requires the maintenance
of a cancer registry, which is of great research value since data on veterans with cancer
is not routinely submitted to state and national cancer registries. The facility registry is
maintained by a Certified Tumor Registrar, and data is submitted to the commission in
accordance with College of American Pathology protocols. A multidisciplinary cancer
committee meets at least four times annually. Accreditation contributes to the quality of
care for veterans by providing tumor boards; access to psychosocial, rehabilitation, and
nutrition services; psychosocial distress screening; and survivorship care plans.
Patients are also informed about clinical trials, and at least 2 percent of patients are
enrolled in trials annually.




VA OIG Office of Healthcare Inspections                                                          2
                                     CAP Review of the Providence VA Medical Center, Providence, RI


Pathways to Excellence
In March 2014, the facility became the second VA facility in the country to receive the
American Nurses Credentialing Center Pathway to Excellence® designation, an
accomplishment achieved by only 9 percent of hospitals nationwide. The designation
recognizes positive practice environments where nurses excel and requires rigorous
practice standards such as nursing control over nursing practice, a safe and healthy
work environment, and systems to address patient care and practice concerns.




VA OIG Office of Healthcare Inspections                                                          3
                                            CAP Review of the Providence VA Medical Center, Providence, RI



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                      Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
 X     The protected peer review process met            Six months of PRC meeting minutes reviewed:
       selected requirements:                            None of the six completed actions were
        The PRC was chaired by the Chief of Staff         reported to the PRC.
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
       Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                 4
                                              CAP Review of the Providence VA Medical Center, Providence, RI


NM               Areas Reviewed (continued)                                  Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 X     The process to review resuscitation events         Twelve months of Special Care Committee
       met selected requirements:                         meeting minutes reviewed:
        An interdisciplinary committee was                There was no evidence that data were
          responsible for reviewing episodes of care        collected to measure performance in
          where resuscitation was attempted.                responding to events.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected            The Surgical Service Staff Committee only
       requirements:                                        met 4 times over the past 6 months.
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        Surgical deaths with identified problems or
          opportunities for improvement were
          reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                   5
                                                CAP Review of the Providence VA Medical Center, Providence, RI


NM            Areas Reviewed (Continued)                                      Findings
 X     The process to review blood/transfusions             The Blood Usage Review Committee only
       usage met selected requirements:                      met twice in 12 months.
        A committee with appropriate clinical
                                                           Two months of Blood Usage Review Committee
         membership met at least quarterly to review
                                                           meeting minutes reviewed:
         blood/transfusions usage.
                                                            The review process did not include the results
        Additional data elements were routinely
                                                             of proficiency testing and the results of peer
         reviewed.
                                                             reviews when transfusions did not meet
                                                             criteria.
 X     Overall, if significant issues were identified,      Corrective actions were not consistently
       actions were taken and evaluated for                  taken, implemented, and followed to
       effectiveness.                                        resolution for surgical performance
                                                             improvement activities, EHR quality reviews,
                                                             and blood/transfusion review issues.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that completed actions from
peer reviews are reported to the Peer Review Committee.

2. We recommended that processes be strengthened to ensure that the Special Care
Committee collects data that measures performance in responding to codes.

3.   We recommended that the Surgical Service Staff Committee meet monthly.

4. We recommended that processes be strengthened to ensure that the Blood Usage Review
Committee meets at least quarterly and that the blood/transfusions usage review process
includes the results of proficiency testing and the results of peer reviews when transfusions did
not meet criteria.

5. We recommended that processes be strengthened to ensure that when data analysis
indicates problems or opportunities for improvement, actions are consistently identified,
implemented, and followed to resolution in surgical performance improvement activities,
electronic health record quality reviews, and blood/transfusion reviews.




VA OIG Office of Healthcare Inspections                                                                     6
                                                       CAP Review of the Providence VA Medical Center, Providence, RI


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACU, and the eye clinic.b

We inspected the medical/surgical, telemetry, intensive care, and behavioral health inpatient
units. We also inspected the emergency department; the inpatient pharmacy; the PACU; SDS;
and the primary care, eye, dialysis, and women’s health clinics. Additionally, we reviewed
relevant documents, conversed with key employees and managers, and reviewed 23 employee
training records (11 SDS, 7 PACU, and 5 eye clinic). The table below shows the areas reviewed
for this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

    NM          Areas Reviewed for General EOC                                               Findings
         EOC Committee minutes reflected sufficient
         detail regarding identified deficiencies,
         corrective actions taken, and tracking of
         corrective actions to closure.
         An infection prevention risk assessment was
         conducted, and actions were implemented to
         address high-risk areas.
         Infection Prevention/Control Committee
         minutes documented discussion of identified
         problem areas and follow-up on implemented
         actions and included analysis of surveillance
         activities and data.
    X    Environmental safety requirements were met.                 Floors needed cleaning in seven of nine
                                                                      patient care areas and several public
                                                                      restrooms, and two of nine patient care areas
                                                                      had damaged floor tiles.
                                                                     We found blood stained gauze and tape in the
                                                                      shower of an unoccupied patient room
                                                                      reported as terminally cleaned.
                                                                     We found damaged furniture in three of nine
                                                                      patient care areas.
                                                                     Surfaces around hand sinks in primary care
                                                                      exam rooms were worn or damaged to the
                                                                      point where they could not be effectively
                                                                      sanitized.
                                                                     The pharmacy clean room for compounding
                                                                      sterile products was not compliant with United
                                                                      States Pharmacopeia <797>1 cleanliness,
                                                                      sterility, and monitoring standards.

1
  United States Pharmacopeia Chapter <797>, Pharmaceutical Compounding of Sterile Preparations, details the procedures and
requirements for compounding sterile preparations and sets standards that are applicable to all practice settings in which sterile
preparations are compounded.



VA OIG Office of Healthcare Inspections                                                                                         7
                                           CAP Review of the Providence VA Medical Center, Providence, RI


NM           Areas Reviewed for General EOC                               Findings
                         (continued)
       Fire safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
 X     The facility complied with any additional      Local policy on the EOC program reviewed:
       elements required by VHA, local policy, or      The chairperson and other key members of
       other regulatory standards.                      the EOC Committee had limited or no
                                                        attendance at committee meetings.
                                                       EOC rounds failed to adequately identify
                                                        deficiencies related to general housekeeping
                                                        and cleanliness.
                                                      Local policy on the Security Management Plan
                                                      reviewed:
                                                       The facility’s required annual Security
                                                         Management Plan was last updated in 2012.
                                                       VA Police did not provide quarterly security
                                                         reports to the EOC Committee.
          Areas Reviewed for SDS and the PACU
       Designated SDS and PACU employees
       received bloodborne pathogens training
       during the past 12 months.
       Designated SDS employees received medical
       laser safety training with the frequency
       required by local policy.
       Fire safety requirements in SDS and on the
       PACU were met.
       Environmental safety requirements in SDS
       and on the PACU were met.
       SDS medical laser safety requirements were
       met.
       Infection prevention requirements in SDS and
       on the PACU were met.
       Medication safety and security requirements
       in SDS and on the PACU were met.
       Auditory privacy requirements in SDS and on
       the PACU were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Eye Clinic
       Designated eye clinic employees received
       laser safety training with the frequency
       required by local policy.
       Environmental safety requirements in the eye
       clinic were met.




VA OIG Office of Healthcare Inspections                                                                8
                                           CAP Review of the Providence VA Medical Center, Providence, RI


NM      Areas Reviewed for Eye Clinic (continued)                         Findings
       Infection prevention requirements in the eye
       clinic were met.
       Medication safety and security requirements
       in the eye clinic were met.
       Laser safety requirements in the eye clinic
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

6. We recommended that processes be strengthened to ensure that all patient care areas and
public restrooms are clean and that compliance be monitored.

7. We recommended that processes be strengthened to ensure that procedures for terminal
cleaning of patient rooms are followed and that compliance be monitored.

8. We recommended that processes be strengthened to ensure that in patient care areas,
damaged furniture is repaired or removed from service and damaged surfaces are repaired and
that compliance be monitored.

9. We recommended that the pharmacy clean room for compounding sterile products be
brought into compliance with United States Pharmacopeia <797> cleanliness, sterility, and
monitoring standards.

10. We recommended that processes be strengthened to ensure that all required members of
the Environment of Care Committee consistently attend committee meetings, that the program
be strengthened to ensure effective surveillance activities, and that compliance be monitored.

11. We recommended that processes be strengthened to ensure that VA Police update the
facility’s Security Management Plan annually and submit quarterly security reports to the
Environment of Care Committee.




VA OIG Office of Healthcare Inspections                                                                9
                                              CAP Review of the Providence VA Medical Center, Providence, RI


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed                   with key managers and employees.
Additionally, we reviewed the EHRs of 34 randomly             selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the        areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The        facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                       Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  10
                                             CAP Review of the Providence VA Medical Center, Providence, RI


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents, and we conversed with key employees. Additionally, we
reviewed the EHRs of 34 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                      Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 11
                                               CAP Review of the Providence VA Medical Center, Providence, RI


Acute Ischemic Stroke Care
The purpose of this review was to determine whether the facility complied with selected
requirements for the assessment and treatment of patients who had an acute ischemic stroke.e

We reviewed relevant documents, the EHRs of 19 patients who experienced stroke symptoms,
and 15 employee training records (5 emergency department, 5 intensive care unit, and 5 acute
inpatient unit), and we conversed with key employees. We also conducted onsite inspections of
the emergency department, the intensive care unit, two acute inpatient units, and the mental
health unit. The table below shows the areas reviewed for this topic. The areas marked as NM
did not meet applicable requirements and needed improvement. Any items that did not apply to
this facility are marked NA.

NM                      Areas Reviewed                                        Findings
       The facility’s stroke policy/plan/guideline
       addressed all required items.
 X     Clinicians completed the National Institutes of     Four of the applicable 11 EHRs did not
       Health stroke scale for each patient within the      contain documented evidence of completed
       expected timeframe.                                  stroke scales.
 NA    Clinicians provided medication (tissue
       plasminogen activator) timely to halt the
       stroke and included all required steps, and
       tissue plasminogen activator was in stock or
       available within 15 minutes.
       Stroke guidelines were posted in all areas
       where patients may present with stroke
       symptoms.
 X     Clinicians screened patients for difficulty         Fourteen of the applicable 15 EHRs did not
       swallowing prior to oral intake of food or           contain documentation that patients were
       medicine.                                            screened for difficulty swallowing prior to oral
                                                            intake.
 X     Clinicians provided printed stroke education to     Seven of the applicable nine EHRs did not
       patients upon discharge.                             contain documentation that stroke education
                                                            was provided to the patient/caregiver.
       The facility provided training to staff involved
       in assessing and treating stroke patients.
       The facility collected and reported required
       data related to stroke care.
 X     The facility complied with any additional          Facility policy required that PTT and PT/INR
       elements required by VHA or local policy.          tests be completed for patients presenting with
                                                          stroke symptoms.
                                                           Eight of the applicable 10 EHRs did not
                                                             contain documented evidence that PTT
                                                             and/or PT/INR tests were completed.




VA OIG Office of Healthcare Inspections                                                                     12
                                          CAP Review of the Providence VA Medical Center, Providence, RI


Recommendations

12. We recommended that processes be strengthened to ensure that clinicians complete and
document National Institutes of Health stroke scales for each stroke patient and that compliance
be monitored.

13. We recommended that processes be strengthened to ensure that clinicians screen patients
for difficulty swallowing prior to oral intake.

14. We recommended that processes be strengthened to ensure that clinicians provide printed
stroke education to patients upon discharge and that compliance be monitored.

15. We recommended that processes be strengthened to ensure that clinician assessment of
patients presenting with stroke symptoms includes facility required PTT and PT/INR tests and
that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                              13
                                            CAP Review of the Providence VA Medical Center, Providence, RI


MRI Safety
The purpose of this review was to determine whether the facility ensured safety in MRI in
accordance with VHA policy requirements related to: (1) staff safety training, (2) patient
screening, and (3) risk assessment of the MRI environment.f

We reviewed relevant documents and the training records of 41 employees (30 randomly
selected Level 1 ancillary staff and 11 designated Level 2 MRI personnel), and we conversed
with key managers and employees. We also reviewed the EHRs of 35 randomly selected
patients who had an MRI January 1–December 31, 2013. Additionally, we conducted a physical
inspection of the MRI area. The table below shows the areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The facility generally met requirements. We
made no recommendations.

NM                     Areas Reviewed                                      Findings
       The facility completed an MRI risk
       assessment, there were documented
       procedures for handling emergencies in MRI,
       and emergency drills were conducted in the
       MRI area.
       Two patient safety screenings were conducted
       prior to MRI, and the secondary patient safety
       screening form was signed by the patient,
       family member or caregiver and reviewed and
       signed by a Level 2 MRI personnel.
       Any MRI contraindications were noted on the
       secondary patient safety screening form, and
       a Level 2 MRI personnel and/or radiologist
       addressed the contraindications and
       documented resolution prior to MRI.
       Level 1 ancillary staff and Level 2 MRI
       personnel were designated and received
       level-specific annual MRI safety training.
       Signage and barriers were in place to prevent
       unauthorized or accidental access to Zones III
       and IV.
       MRI technologists maintained visual contact
       with patients in the magnet room and two-way
       communication with patients inside the
       magnet, and the two-way communication
       device was regularly tested.
       Patients were offered MRI-safe hearing
       protection for use during the scan.
       The facility had only MRI-safe or compatible
       equipment in Zones III and IV, or the
       equipment was appropriately protected from
       the magnet.
       The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                                14
                                             CAP Review of the Providence VA Medical Center, Providence, RI
                                                                                               Appendix A


              Facility Profile (Providence/650) FY 2014 through
                                   June 20142
Type of Organization                                                                    Secondary
Complexity Level                                                                        2-Medium complexity
Affiliated/Non-Affiliated                                                               Affiliated
Total Medical Care Budget in Millions                                                   $225.9
Number of:
    Unique Patients                                                                    29,833
    Outpatient Visits                                                                  273,789
    Unique Employees3                                                                  1,101
Type and Number of Operating Beds:
    Hospital                                                                           73
    Community Living Center                                                            NA
    Mental Health                                                                      18
Average Daily Census (as of May):
    Hospital                                                                           50
    Community Living Center                                                            NA
    Mental Health                                                                      14
Number of Community Based Outpatient Clinics                                            3
Location(s)/Station Number(s)                                                           New Bedford/650GA
                                                                                        Hyannis/650GB
                                                                                        Middletown/650GD
VISN Number                                                                             1




2
    All data is for FY 2014 through June 2014 except where noted. 

3
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 




VA OIG Office of Healthcare Inspections                                                                  15
                                                                    CAP Review of the Providence VA Medical Center, Providence, RI
                                                                                                                      Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)4




4
    Metric definitions follow the graphs.



VA OIG Office of Healthcare Inspections                                                                                        16
                                                            CAP Review of the Providence VA Medical Center, Providence, RI



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                17
                                                                                                         CAP Review of the Providence VA Medical Center, Providence, RI


                                                                         Metric Definitions
 Measure                       Definition                                                                              Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)       A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                 A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                              A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                    A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                             A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)          A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                           A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                       A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                  A higher value is better than a lower value
 Mental Health Status          Mental health status (outpatient only, the Veterans RAND 12 Item Health Survey)         A higher value is better than a lower value
 Mental Health Wait Time       Mental health wait time for new and established patients (top 50 clinics)               A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                    A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)       A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)                A higher value is better than a lower value
 PSI                           Patient safety indicator                                                                A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                        A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                          A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                 A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                    A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                   A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction               A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                  A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                 A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                     A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                          A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)              A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                              18
                                     CAP Review of the Providence VA Medical Center, Providence, RI
                                                                                       Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       August 8, 2014

          From:        Director, VA New England Healthcare System (10N1)

       Subject:        CAP Review of the Providence VA Medical Center
                       Providence, RI

             To:       Director, Bedford Office of Healthcare Inspections (54BN)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       I have reviewed and concur with the action plans regarding the CAP
       Review of the Providence VA Medical Center, Providence, RI

       June 14, 2014. 


       Sincerely,




       Michael F. Mayo-Smith, MD, MPH
       Network Director




VA OIG Office of Healthcare Inspections                                                         19
                                     CAP Review of the Providence VA Medical Center, Providence, RI
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       August 6, 2014

          From:        Director, Providence VA Medical Center (650/00)

       Subject:        CAP Review of the Providence VA Medical Center
                       Providence, RI

             To:       Director, VA New England Healthcare System (10N1)

       I have reviewed and concur with the action plans regarding the CAP
       Review of the Providence VA Medical Center, Providence, RI

       June 14, 2014. 


       Sincerely, 





VA OIG Office of Healthcare Inspections                                                         20
                                     CAP Review of the Providence VA Medical Center, Providence, RI


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
completed actions from peer reviews are reported to the Peer Review Committee.

Concur

Target date for completion: November 1, 2014

Facility response: A plan to improve and revise the peer review process was
implemented beginning in May 2014. When the Peer Review Committee assigns a
Level 2 or Level 3, the committee through the Chief of Staff’s office will send a letter to
the service chief and request that an action plan be identified and implemented in
collaboration with the provider involved. The Committee will track the level 2 and
3 action plan assignments through a facility developed tool. Once action is completed it
will be reported back to the Peer Review Committee for closing. The process will be
tracked until November 2014.

Recommendation 2. We recommended that processes be strengthened to ensure that
the Special Care Committee collects data that measures performance in responding to
codes.

Concur

Target date for completion: September 1, 2014.

Facility response: An interdisciplinary committee (Special Care Committee) is
responsible for reviewing episodes of care where resuscitation was attempted.
Beginning at the June meeting of the Special Care Committee, all codes were reviewed,
brief discussion ensued and information included in the committee minutes. This
information is tracked in a database and data aggregated over the course of the fiscal
year.

Recommendation 3.           We recommended that the Surgical Service Staff Committee
meet monthly.

Concur

Target date for completion: October 1, 2014.




VA OIG Office of Healthcare Inspections                                                         21
                                     CAP Review of the Providence VA Medical Center, Providence, RI


Facility response: The Surgical Work Group Committee has been retooled to better
align with the directive requirements to meet monthly. Since May, 2014 the committee
has met monthly and monthly meetings have been established going forward.

Recommendation 4. We recommended that processes be strengthened to ensure that
the Blood Usage Review Committee meets at least quarterly and that the
blood/transfusions usage review process includes the results of proficiency testing and
the results of peer reviews when transfusions did not meet criteria.

Concur

Target date for completion: November 1, 2014.

Facility response: The Blood Usage Committee members have been reeducated
regarding their responsibilities per committee policy. Quarterly meetings have been
scheduled and the standard agenda includes all elements to be reviewed per policy.
The proficiency testing report will now be included as an agenda item in the committee.
Peer reviews results when transfusions do not meet criteria will also be reported at this
committee though there have not been any occurrences this fiscal year.

Recommendation 5. We recommended that processes be strengthened to ensure that
when data analysis indicates problems or opportunities for improvement, actions are
consistently identified, implemented, and followed to resolution in surgical performance
improvement activities, electronic health record quality reviews, and blood/transfusion
reviews.

Concur

Target date for completion: November 1, 2014.

Facility response: As stated above in number 4. These committees have been
reeducated regarding their responsibilities per their individual committee policies
regarding any corrective actions to be implemented and the need to follow thru to
completion and note in the respective minutes. The minutes for these committees will
be monitored for three months to ensure compliance.

Recommendation 6. We recommended that processes be strengthened to ensure that
all patient care areas and public restrooms are clean and that compliance be monitored.

Concur

Target date for completion: December 1, 2014.

Facility response: A restoration contractor was hired in July, 2014 to bring all areas up
to healthcare building standards of cleanliness. It is anticipated that the contract work
will take up to 120 days. The hiring of twenty additional Housekeeping Aids has been
authorized and recruitment is open and continuous. Restrooms are monitored hourly
for cleanliness and a sign in sheet appears in each. Sheets will be retained and


VA OIG Office of Healthcare Inspections                                                         22
                                     CAP Review of the Providence VA Medical Center, Providence, RI


summary provided to the EOC committee and Quality Management on a monthly basis.
Also hiring progress to be monitored and updates presented at EOC committee.

The facility has begun the process of reorganizing Environmental Management Services
out of FMS and will formalize EMS as an independent service with direct oversight by
the Associate Director of Operations. Human Resources is in the process of formally
separating out the service, creating levels of service leadership, support staff and
training positions. The reorganization of EMS is expected to provide the facility with a
strong emphasis on EOC oversight. Target date for completion is 150 days as
recruitment will need to occur.

Recommendation 7. We recommended that processes be strengthened to ensure that
procedures for terminal cleaning of patient rooms are followed and that compliance be
monitored.

Concur

Target date for completion: November 1, 2014.

Facility response: Supervisors will monitor all rooms following a terminal cleaning,
document compliance and provide summary report monthly at EOC Committee and to
Quality Management. A full time training position for Housekeeping Aids is being
created and will be recruited for. A separate room is being set aside for training of
housekeepers in terminal cleaning of patient rooms.

Recommendation 8. We recommended that processes be strengthened to ensure that
in patient care areas, damaged furniture is repaired or removed from service and
damaged surfaces are repaired and that compliance be monitored.

Concur

Target date for completion: November 1, 2014.

Facility response: Damaged furniture has been replaced and damaged surfaces have
been repaired. Clarification of process owner’s responsibility to report damaged
furniture and damaged wall surfaces has been established. Furniture is routinely
inspected by EMS during cleaning and damaged furniture replaced. During EOC
weekly rounds the EMS person will inspect the area being reviewed for any damaged
furniture and damaged wall surfaces.

Recommendation 9.      We recommended that the pharmacy clean room for
compounding sterile products be brought into compliance with United States
Pharmacopeia <797> cleanliness, sterility, and monitoring standards.

Concur

Target date for completion: February 1, 2015 for permanent <797> ISO 7 compliant
room.


VA OIG Office of Healthcare Inspections                                                         23
                                     CAP Review of the Providence VA Medical Center, Providence, RI


Facility response: The facility is preparing temporary locations for pharmacy’s clean
room operations while we await funding to build the approved permanent <797> fully
compliant clean room for the Inpatient Pharmacy. In the interim, preparation of
chemotherapy agents will be conducted in a <797> compliant IV trailer using certified
negative pressure isolator (ISO 5). The sterile compounding of the other parenteral
products will use a certified positive pressure isolator (ISO 5). This isolator is located in
a separate and dedicated clean room. It is anticipated that the temporary facilities will
be in use within 60 days followed by completion of the permanent facilities in
February 2015. Environmental/biological testing and monitoring will commence upon
awarding of a contract with an outside monitoring service.

Recommendation 10. We recommended that processes be strengthened to ensure
that all required members of the Environment of Care Committee consistently attend
committee meetings, that the program be strengthened to ensure effective surveillance
activities, and that compliance be monitored.

Concur

Target date for completion: November 1, 2014.

Facility response: Reestablished oversight by the Chief of Facility Management Service
and the Associate Director is providing supervision and direction for the EOC
Committee to ensure compliance with components of the Environment of Care
Committee policy and Directives.

Recommendation 11. We recommended that processes be strengthened to ensure
that VA Police update the facility’s Security Management Plan annually and submit
quarterly security reports to the Environment of Care Committee.

Concur

Target date for completion: November 1, 2014.

Facility response: Reestablished oversight by the Chief of Facility Management Service
and the Associate Director is providing supervision and direction to ensure compliance
with components of the Environment of Care Committee policy and Directives. The
Security Management Plan will be reviewed and a standard report template for the
Police Service was developed to report to the EOC Committee on a quarterly basis.

Recommendation 12. We recommended that processes be strengthened to ensure
that clinicians complete and document National Institutes of Health stroke scales for
each stroke patient and that compliance be monitored.

Concur

Target date for completion: November 1, 2014.




VA OIG Office of Healthcare Inspections                                                         24
                                     CAP Review of the Providence VA Medical Center, Providence, RI


Facility response: The Clinicians were reeducated and they will be completing the
stroke template. All records will be monitored for compliance and outcome reported at
Stroke Committee and to Quality Management.

Recommendation 13. We recommended that processes be strengthened to ensure
that clinicians screen patients for difficulty swallowing prior to oral intake.

Concur

Target date for completion: November 1, 2014.

Facility response: This requirement was added to the nursing stroke/TIA template which
will facilitate capturing the information in a standardized mode. The standard operating
procedure dysphagia screening was developed and accepted. All nursing personnel
were educated by May 30, 2014. All records will be monitored for three months to
ensure compliance.

Recommendation 14. We recommended that processes be strengthened to ensure
that clinicians provide printed stroke education to patients upon discharge and that
compliance be monitored.

Concur

Target date for completion: November 1, 2014.

Facility response: This requirement was added to the nursing stroke/TIA assessment
template to ensure compliance. All records will be monitored for three months to ensure
compliance.

Recommendation 15. We recommended that processes be strengthened to ensure
that clinician assessment of patients presenting with stroke symptoms includes facility
required PTT and PT/INR tests and that compliance be monitored.

Concur

Target date for completion: November 1, 2014.

Facility response: The physician order set was edited to include PTT and all clinicians
were reeducated. We will monitor for three months to ensure compliance.




VA OIG Office of Healthcare Inspections                                                         25
                                     CAP Review of the Providence VA Medical Center, Providence, RI
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Frank Keslof, EMT, MHA Team Leader
Contributors            Annette Acosta, RN, MN
                        Elaine Kahigian, RN, JD
                        Jeanne Martin, PharmD
                        Jason Kravetz, Special Agent, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Jeff Joppie, BS
                        Nathan McClafferty, MS
                        Patrick Smith, M. Stat
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         26
                                     CAP Review of the Providence VA Medical Center, Providence, RI
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA New England Healthcare System (10N1)
Director, Providence VA Medical Center (650/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jack Reed, Sheldon Whitehouse
U.S. House of Representatives: David Cicilline, Jim Langevin


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         27
                                               CAP Review of the Providence VA Medical Center, Providence, RI
                                                                                                 Appendix G

                                                   Endnotes

a
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
    References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
    Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
   American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
   and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
d
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
e
  The references used for this topic were:
	 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
	 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
   January 31, 2013.
f
  References used for this topic included:
	 VHA Handbook 1105.05, Magnetic Resonance Imaging Safety, July 19, 2012.
	 Emanuel Kanal, MD, et al., “ACR Guidance Document on MR Safe Practices: 2013,” Journal of Magnetic
   Resonance Imaging, Vol. 37, No. 3, January 23, 2013, pp. 501–530.
	 The Joint Commission, “Preventing accidents and injuries in the MRI suite,” Sentinel Event Alert, Issue 38,
   February 14, 2008.
	 VA National Center for Patient Safety, “MR Hazard Summary,”
   http://www.patientsafety.va.gov/professionals/hazards/mr.asp.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
   October 4, 2011.




VA OIG Office of Healthcare Inspections                                                                         28
